          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           PBS Did Not Follow Internal Guidance for
           Congressional Notification When Supplementing
           Funding for the Recovery Act Project at
           10 W. Jackson
           Report Number A090172/P/5/R14002
           April 18, 2014




A090172/P/5/R14002
                Office of Audits
                Office of Inspector General
                U.S. General Services Administration


    DATE:           April 18, 2014
    TO:             Ann P. Kalayil
                    Regional Administrator, 5A

    FROM:           Michael C. Lamonica
                    Audit Manager, Great Lakes Field Office, (JA-5)
    SUBJECT:        PBS Did Not Follow Internal Guidance for Congressional Notification
                    When Supplementing Funding for the Recovery Act Project at
                    10 W. Jackson
                    Report Number A090172/P/5/R14002


This report presents the results of our audit of the American Recovery and
Reinvestment Act modernization project at 10 W. Jackson, Chicago, Illinois.

This examination was performed as part of the Office of Inspector General’s (OIG)
oversight of the General Services Administration’s (GSA) implementation of the
American Recovery and Reinvestment Act of 2009 (Recovery Act). Our objective was
to determine if GSA plans, awards, and administers contracts for major construction and
modernization projects in accordance with prescribed criteria and Recovery Act
mandates. This audit addresses some of the modifications to Contract Number
GSP0510GB5006, related to the 10 W. Jackson modernization project. The total value
of the modernization project is approximately $25 million.

Our audit found that PBS did not notify Congress that it used non-prospectus Repair
and Alterations funds (Budget Activity, BA 54 1) on these modifications as a supplement
to its Recovery Act funding (BA 03 2). According to PBS guidance, this should have
resulted in Congressional notification because the non-prospectus Repair and
Alterations funding was being used on a project above the prospectus level.

See Appendix A – Purpose, Scope, and Methodology for additional details.



1
  BA54 funding is used for non-prospectus Repair and Alterations, also referred to as Basic or Minor
Repairs and Alterations.
2
  BA03 represents Recovery Act funding designated specifically for high-performance green building
modernization and limited scope projects.

A090172/P/5/R14002                               1
If you have any questions regarding this report, please contact me at:

   Michael Lamonica    Audit Manager    michael.lamonica@gsaig.gov       312-353-8481

Thank you to you and your staff for your assistance during this audit.




A090172/P/5/R14002                          2
Background

Upon passage of the Recovery Act, 3 PBS began the process of obtaining bids and
awarding contracts for federal buildings for both minor repair work and capital work such
as building modernizations. Among the projects PBS selected for modernization were
the buildings at 10 W. Jackson, 18 W. Jackson, and 230 S. State Street in Chicago,
Illinois. Intended as a Recovery Act project, PBS entered into a contract with M. A.
Mortenson Company (Mortenson) for the modernization of the properties with plans for
immediate federal agency occupancy as soon as the construction was completed.
Work items included improvements to the HVAC and high performance lighting
systems, elevators, plumbing, fire and life safety, exterior envelope, and windows. One
of the goals of the project is to reconfigure “the first floor existing space to maximize the
potential for retail leasing.” Parts of the building, including the first floor on State Street,
contained retail tenants who are continuing occupancy.

Finding 1 – PBS supplemented Recovery Act projects with non-Recovery Act
funds without notifying Congress.

PBS did not notify Congress that it used non-prospectus Repair and Alterations funds
from Budget Activity (BA) 54 to supplement Recovery Act funding from BA03 for the 10
W. Jackson project. During the project, PBS originally used Recovery Act funds from
BA03 on four modifications. However, PBS subsequently replaced the funding with
non-prospectus Repair and Alterations funds from BA54.

Minor R&A funds, 4 part of PBS’s Capital Program, are generally used for projects below
the prospectus limit. 5 They are necessary to keep GSA’s building inventory in a proper
state of repair to protect the building’s value, contribute to its income-producing
potential, and ensure the continuity of client missions. PBS’s use of these funds to
supplement Recovery Act projects reduces the funding available for its normal
improvement, maintenance, and repair of building inventory.

If Minor R&A funds are used for another purpose for work within the same scope,
Congress should be notified. As part of its Recovery Act implementation, PBS issued
Guidance on use of BA54 funds on ARRA (Recovery Act) projects to clarify how Minor
R&A funds could be used in combination with Recovery Act funding. This policy states
that “if the BA03 funding exceeds the prospectus threshold and BA54 funding is also
planned for the same scope, Congressional notification is also recommended.” In the
case of the 10 W. Jackson project, PBS transferred monies out of BA03 after work was
completed in order to fund the completed work from BA54.
3
  The Recovery Act provided GSA with $5.55 billion for the Federal Buildings Fund. In accordance with
the Recovery Act, GSA’s Public Buildings Service (PBS) is using the funds to convert federal buildings
into High-Performance Green Buildings, as well as construct federal buildings, courthouses, and land
ports of entry. The Recovery Act mandated that $5 billion of the funds be obligated by September 30,
2010, and the remaining funds by September 30, 2011.
4
  Also referred to as BA54 funds.
5
  The prospectus limit is the dollar threshold ($2.79 million for fiscal year 2013) above which a project
requires Congressional approval.

A090172/P/5/R14002                                 3
PBS issued:

    Modification   Award Date         Cost                                Scope
       No.
                                                Repair ramps related to a retail space entrance on the
                                                building including, but not limited to demolition of the
         6         May 5, 2010      $44,700     existing ramp, replacement of new ramp with concrete
                                                and granite, steel painted railings, new doors, and
                                                drywall work.
                                                Provide 400A power to one retail space in lieu of 200A
        11         July 30, 2010    $24,579
                                                existing service.
                                                Relocate two condensing units servicing two separate
                                                retail spaces from the courtyard in the back of the
        29         March 2, 2011    $45,424
                                                building to the roof, including relocation of all associated
                                                mechanical and electrical lines.
                                                Provide 400A power to the second retail space to
        30         March 2, 2011    $48,592
                                                accommodate tenant requirements.

PBS awarded these modifications to Mortenson, the prime contractor, under the
previously-awarded Recovery Act contract for the property using BA03 funding. Using
Recovery Act funds, as well as awarding the contract to the current on-site contractor,
indicates that this was logical follow-on work related to the overall Recovery Act project
in the general scope of the Recovery Act. This is supported by the original request for
proposals, which has “Reconfigure the first floor existing space to maximize the
potential for retail leasing” as one of the stated project goals.

PBS was not required to compete the award because it was awarded to the same
contractor already on the premises for the same general scope of modernization and
renovation work. Were these modifications outside the planned scope of work for the
project, then these items would have required competition.

On August 24, 2011, PBS issued modification number 37 to “cost transfer $176,260.00
from budget activity (BA) 03 to BA54 for retail work.” 6 With this modification, PBS
substituted $176,260 in non-prospectus Repair and Alterations funding for Recovery Act
funding. This cost transfer covered funding originally obligated from BA03 from contract
modifications 6, 11, 29 and 30.

According to PBS, it believed the cost transfer was appropriate because the items now
funded by the BA54 money were potentially outside the scope of the Recovery Act
project. PBS stated this was work that would need to be done to an already leased out
space at some point and decided to use the money now.




6
 Because of an accounting correction, this total does not equal the total of the four modifications noted
above; however Modification 37 is a direct transfer of the cost of Modifications 6, 11, 29, and 30 from
BA03 to BA54.

A090172/P/5/R14002                                 4
Conclusion

In accordance with its guidance, PBS should have notified Congress when it used non-
prospectus Repair and Alteration funds from BA54 to supplement Recovery Act funds
from BA03 on the 10 W. Jackson project. Because the maximization of retail space was
one of the original goals of the project, the money spent on the project’s retail space
was within the project’s general scope of work. According to PBS internal guidance,
Congressional notification was recommended. If PBS believed this work was outside
the scope of maximizing the potential for retail leasing under the base Recovery Act
contract, then the work should have been competed and issued as a separate contract.

Recommendation

As PBS has taken corrective action on this issue as part of corrective actions related to
a prior report (A120111/P/R/R14001, issued March 17, 2014), we are making no
recommendations at this time.

Management Comments

In its response to the draft report, PBS management concurred with the audit findings.
PBS’s response is included in its entirety as Appendix B to this report.




A090172/P/5/R14002                         5
Appendix A – Purpose, Scope, and Methodology
Purpose

This audit was performed as part of the Office of Inspector General’s oversight of the
GSA’s implementation of the American Recovery and Reinvestment Act of 2009. Our
objective was to determine if GSA plans, awards, and administers contracts for major
construction and modernization projects in accordance with prescribed criteria and
Recovery Act mandates.

Scope

This audit addresses some of the modifications to Contract Number GSP0510GB5006,
for the 10 W. Jackson modernization project in Chicago, Illinois. The total value of the
modernization project is approximately $25 million.

Methodology

To accomplish our objective, we:

   •   Performed fieldwork in the Great Lakes Region;
   •   Interviewed GSA contracting and project staff;
   •   Reviewed and analyzed contract files; and
   •   Reviewed applicable guidance and regulations.

We conducted the audit between April 2012 and January 2013 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Internal Controls

As this work was performed under the continuing oversight of all GSA Recovery Act
projects, management controls are currently under assessment. Only those
management controls discussed in the report have been assessed.




A090172/P/5/R14002                    A-1
Appendix B – Management Comments




A090172/P/5/R14002    B-1
Appendix C – Report Distribution

Regional Administrator (5A)

Regional Commissioner, Public Buildings Service (5P)

Regional Recovery Executive (5PC)

Commissioner, Public Buildings Service (P)

Deputy Commissioner, Public Buildings Service (PD)

Chief of Staff, Public Buildings Service (PB)

Director, Public Buildings Service Executive Response (PBA)

Senior Accountable Official for Recovery Act Reports (PCBJ)

National Program Office ARRA Executive, PBS (PCB)

Chief of Staff, PBS Office of Construction Programs (PCB)

Strategic Program Manager, PBS Program Mgmt. & Support Div (PCBF)

Analyst, PBS Program Mgmt. & Support Div (PCBF)

PBS Audit Liaison (PFF)

Region 5 PBS Audit Liaison

Program Manager, GAO/IG Audit Response Branch (H1C)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)




A090172/P/5/R14002                      C-1
